U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

April 8, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Ford Motor Co. v. United States, No. 19-1026
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on February 13,
2020, and placed on the docket on February 18, 2020. The government’s response is now due,
after one extension, on April 20, 2020. We respectfully request, under Rule 30.4 of the Rules of
this Court, a further extension of time to and including May 26, 2020, within which to file a
response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner consents to this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-1026
FORD MOTOR COMPANY
USA

JESSICA L. ELLSWORTH
HOGAN LOVELLS US LLP
COLUMBIA SQUARE
555 THIRTEENTH STREET, NW
WASHINGTON, DC 20004
202-637-5600
JESSICA.ELLSWORTH@HOGANLOVELLS.CO
M
FRANCES HADFIELD
CUSTOMS & INTERNATIONL TRADE BAR
ASSOCIATION
204 E. ST. NE
WASHINGTON, DC 20002
202-675-8447
FHADFIELD@CROWELL.COM
PETER D. KEISLER
SIDLEY AUSTIN LLP
1501 K STREET, NW
WASHINGTON, DC 20005
202-736-8000
PKEISLER@SIDLEY.COM
MATTHEW NICLEY
CUSTOMS AND INTERNATIONAL TRADE
ASSOCIATION HUGHES HUBBARD AND REED
1175 I STREET, N.W
WASHINGTON, DC 20005

JOHN M. PETERSON
NEVILLE PETERSON LLP
ONE EXCHANGE PLAZA
55 BROADWAY
SUITE 2602
NEW YORK , NY 20006
212-635-2730
JPETERSON@NPWNY.COM

